 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




SOME CONNECTICUT CHILD DAY CARE
 CENTERS DID NOT ALWAYS COMPLY
  WITH STATE HEALTH AND SAFETY
    LICENSING REQUIREMENTS




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         April 2014
                                                       A-01-13-02506
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Two of the three providers that we reviewed did not always comply with applicable State
  licensing requirements to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families provides Federal grants through several programs,
including Head Start and the Child Care and Development Fund (CCDF). In a recent report
summarizing the results of 24 audits of Head Start grantees, we described multiple health and
safety issues that put children at risk. To determine whether similar health and safety risks exist
at childcare providers that received CCDF funding, we audited three licensed child day care
centers (providers) that received CCDF funding in Connecticut. We conducted this review in
conjunction with our review of 20 family day care homes (report number A-01-12-02504).

The objective of this review was to determine whether the Department of Social Services’ (State
agency) onsite monitoring ensured that providers that received CCDF funds complied with State
licensing requirements related to the health and safety of children.

BACKGROUND

The CCDF (authorized by the Child Care and Development Block Grant Act and the Social
Security Act, section 418) assists low-income families, families receiving temporary public
assistance, and families transitioning from public assistance to obtain childcare so that they may
work or obtain training or education. Combined funding for the CCDF program for fiscal year
2012, including the block grant’s discretionary fund and the CCDF mandatory and matching
funds, is approximately $5.2 billion.

The State agency is the lead agency and sponsor of the “Care 4 Kids” program, which helps low-
to moderate-income families in Connecticut pay for childcare. Parents may select a childcare
provider that satisfies the applicable State and local requirements, including basic health and
safety requirements.

As the lead agency, the State agency must monitor licensed providers. According to the Child
Care and Development Fund Plan for Connecticut, the State Department of Public Health (State
licensing agency) is responsible for childcare licensing and enforcement personnel, who conduct
inspections to ensure that providers meet basic health and safety standards. State regulations
mandate the State licensing agency to conduct unannounced inspections of providers at least
every 2 years.

WHAT WE FOUND

Although the State agency conducted the required inspections at all three of the providers that we
reviewed, this onsite monitoring did not ensure that providers that received CCDF funds
complied with State licensing requirements related to the health and safety of children. We


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                   i
determined that two of the three providers that we reviewed did not comply with one or more
State licensing requirements to ensure the health and safety of children. Specifically, we found
that the two providers did not always comply with State licensing requirements related to the
physical conditions of the child day care centers and did not comply with required criminal
records and protective services checks.

WHAT WE RECOMMEND

We recommend that the State agency work with the State licensing agency to:

    •   ensure through more frequent and thorough onsite monitoring that providers comply with
        health and safety regulations and

    •   ensure that all providers’ employees who provide direct services to children have had
        criminal records and child abuse and neglect registry checks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
explained its plans for addressing our recommendations.




Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                ii
                                                    TABLE OF CONTENTS

INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Connecticut Childcare Services............................................................................ 1
               National Association of Child Care Resources & Referral Agencies .................. 2
               Administration for Children and Families Proposed Regulations........................ 2

         How We Conducted This Review .................................................................................... 3

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With Physical Conditions Requirements ................ 3
                State Requirements ............................................................................................... 3
                Providers Did Not Comply With Physical Conditions Requirements ................. 4

         Providers Did Not Always Comply With Required Criminal Records and
           Child Abuse Registry Checks ...................................................................................... 5
                State Requirements ............................................................................................... 5
                Providers Did Not Comply With Required Criminal Records and
                  Child Abuse Registry Checks............................................................................ 5

         Causes of Noncompliance ................................................................................................ 6

RECOMMENDATIONS ............................................................................................................ 6

STATE AGENCY COMMENTS ............................................................................................... 6

APPENDIXES

           A: Audit Scope and Methodology ................................................................................. 7

           B: Federal Regulations and State Licensing Regulations .............................................. 8

           C: Photographic Examples of Noncompliance
               With Physical Conditions Requirements .............................................................. 10

           D: Instances of Noncompliance at Each Child Day Care Center ................................ 15

           E: State Agency Comments ......................................................................................... 16



Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                                                               iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited three licensed child day care
centers 2 (providers) that received CCDF funding in Connecticut. We conducted this review in
conjunction with our review of 20 family day care homes (report number A-01-12-02504).

OBJECTIVE

Our objective was to determine whether the Connecticut Department of Social Services’ (State
agency) onsite monitoring ensured that providers that received CCDF funds complied with State
licensing requirements related to the health and safety of children.

BACKGROUND

Authorized by the Child Care and Development Block Grant (CCDBG) Act (42 U.S.C. 9858 et
seq.) and section 418 of the Social Security Act (42 U.S.C. 618), the CCDF assists low-income
families, families receiving temporary public assistance, and families transitioning from public
assistance to obtain childcare so that they may work or obtain training or education. Combined
funding for the CCDF program for fiscal year 2012, including the block grant’s discretionary
fund and the CCDF mandatory and matching funds, was approximately $5.2 billion.

The CCDBG Act and implementing Federal regulations require the State to maintain a plan that
certifies that the State has requirements in State or local law to protect the health and safety of
children, and the plan must certify that procedures are in effect to ensure that childcare providers
comply with these requirements (42 U.S.C. 9858c(c)(2)(F) through (G) and 45 CFR 98.15(b)(5)-
(6)).

Federal regulations (45 CFR 98.10) require States to designate a lead agency to administer the
CCDF program.

Connecticut Childcare Services

The State agency is the lead agency and sponsor of the “Care 4 Kids” program, which helps low-
to moderate-income families in Connecticut pay for childcare. Parents may select a childcare
1
 Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503, issued
December 13, 2011).
2
 “Child day care center” means a program of supplementary care for more than 12 related or unrelated children
outside their own homes on a regular basis (Connecticut General Statutes, §19a-77(a)(1)).




Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                             1
provider that satisfies the applicable State and local requirements, including basic health and
safety requirements.

As the lead agency, the State agency must monitor licensed providers. According to the Child
Care and Development Fund Plan for Connecticut FFY 2012–2013, the State Department of
Public Health (State licensing agency) is responsible for childcare licensing and enforcement
personnel, who conduct inspections to ensure that providers meet basic health and safety
standards. State regulations mandate the State licensing agency to conduct unannounced
inspections of providers at least every 2 years (Regulations of Connecticut State Agencies (Conn.
Agencies Regs.), section 19a-79-2a(c)(7)).

National Association of Child Care Resource & Referral Agencies

The National Association of Child Care Resource & Referral Agencies 3 (NACCRRA) published
a 2013 update, We Can Do Better, that reviewed and ranked State childcare center regulations
and oversight. 4 NACCRRA stated that effective monitoring policies are important for child
safety and provider accountability for compliance with State licensing requirements.
NACCRRA added that making inspection reports public is an important form of consumer
education because parents cannot make informed selections among childcare settings unless they
have access to compliance information. Otherwise, they assume that a State license is a seal of
approval. NACCRRA also suggested that given the important role effective monitoring plays in
promoting child safety and program compliance with licensing, the number of programs that
each licensing inspector monitors needs to be reduced, not increased. NACCRRA recommended
that States increase inspections of providers to at least once a year and that States reduce the
caseload for licensing inspectors to a ratio of 1:50 (1 inspector for 50 cases).

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 5 The proposed changes include a requirement that State lead agencies perform an
initial onsite monitoring visit and at least one annual unannounced onsite visit of providers that
have received CCDF subsidies. The proposal also requires providers responsible for the health
and safety of children to receive specific and basic training commensurate with their professional
responsibilities. In addition, ACF stated that it strongly encourages lead agencies to establish
requirements for ongoing training.




3
    NACCRRA is now known as Child Care Aware of America.
4
 NACCRRA works with more than 600 State and local Child Care Resource and Referral agencies nationwide.
NACCRRA leads projects that increase the quality and availability of childcare professionals, undertakes research,
and advocates childcare policies that positively impact the lives of children and families.
5
    78 Fed. Reg. 29441 (May 20, 2013).



Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                                  2
HOW WE CONDUCTED THIS REVIEW

Of the 936 providers that received CCDF funding for the month of July 2012, we selected 3
providers for our review. We based this selection on the consideration of certain risk factors,
including previous health and safety findings and the number of children being served by the
provider.

We conducted fieldwork at three different providers. The selected providers were located in
Waterbury, New Britain, and Hartford, Connecticut. We conducted these unannounced site
visits from October 17 to October 25, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details
on the Federal regulations and State licensing health and safety requirements that pertain to
providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements.

                                               FINDINGS

Although the State agency conducted the required inspections at all three of the providers that we
reviewed, this onsite monitoring did not ensure that providers that received CCDF funds
complied with State licensing requirements related to the health and safety of children. We
determined that two of the three providers that we reviewed did not comply with one or more
State licensing requirements to ensure the health and safety of children. Specifically, we found
that the two providers did not always comply with one or more requirements related to the
physical conditions of the child day care centers and did not comply with required criminal
records and protective services checks.

Appendix D displays a table that contains the instances of noncompliance at each provider we
reviewed.

PROVIDERS DID NOT ALWAYS COMPLY WITH
PHYSICAL CONDITIONS REQUIREMENTS

State Requirements

A prospective provider applies for a child day care center license by completing, signing, and
submitting to the State licensing agency an application to obtain a child day care center license
(Conn. Agencies Regs., section 19a-79-2a). The application form includes an acknowledgement
from the applicant that the applicant has read the State licensing regulations, agrees to abide by
them, and will allow full unannounced inspections by the State licensing agency’s staff. State


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                               3
licensing regulations include the following requirements related to the physical conditions of
child day care centers:

    •   first-aid kits must be kept out of the reach of children (Conn. Agencies Regs.,
        section 19a-79-6a(c));

    •   rugs must be maintained in a state of good repair and secured to the floor (Conn.
        Agencies Regs., section 19a-79-7a(e)(5));

    •   potentially hazardous substances must be stored in a separate locked area
        (Conn. Agencies Regs., section 19a-79-7a(e)(10));

    •   garbage receptacles must be in good repair (Conn. Agencies Regs., section 19a-79-
        7a(e)(11));

    •   the building, equipment, and services must be maintained in a good state of repair and
        kept free from health and safety hazards (Conn. Agencies Regs., section 19a-79-
        7a(c)(2));

    •   fuse boxes must be inaccessible to children (Conn. Agencies Regs., section 19a-79-
        7a(g)(4));

    •   the playground must be free from hazards (Conn. Agencies Regs., section 19a-79-
        7a(h)(3)); and

    •   protruding bolts must be covered or protected (Conn. Agencies Regs., section 19a-79-
        7a(h)(4)).

Appendix B contains all relevant State licensing regulations.

Providers Did Not Comply With Physical Conditions Requirements

We determined that two of the three providers we reviewed had one or more instances of
noncompliance with requirements to protect children from potentially hazardous conditions.
Specifically, we found 34 instances of noncompliance with State licensing requirements related
to physical conditions. Examples of noncompliance included:

    •   first-aid kits found within the reach of children (Appendix C, photograph 1);

    •   rugs not secured to the floor (Appendix C, photograph 2),

    •   health and safety hazards posed by shaving cream and hair gel left within the reach of
        children (Appendix C, photograph 3),

    •   garbage cans with sharp rusted metal edges (Appendix C, photograph 4),


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                              4
    •   health and safety hazards presented by an employee’s pocketbook with unknown contents
        left within the reach of children (Appendix C, photograph 5),

    •   rugs not in state of good repair and water-damaged and stained carpets used in
        classrooms (Appendix C, photograph 6),

    •   wires and electrical cords accessible to children (Appendix C, photograph 7), and

    •   a fuse box accessible to children (Appendix C, photograph 7).

In addition, we found that the two providers did not keep playground areas free from hazards.
Examples of these hazards included:

    •   landscape edging and aluminum fencing with sharp edges and not in good repair
        (Appendix C, photograph 8),

    •   exposed wiring in a gazebo used by children (Appendix C, photograph 9), and

    •   a protruding bolt without a protective covering in a playground area (Appendix C,
        photograph 10).

PROVIDERS DID NOT ALWAYS COMPLY WITH REQUIRED
CRIMINAL RECORDS AND CHILD ABUSE REGISTRY CHECKS

State Requirements

In Connecticut, both Federal and State criminal records checks with the use of fingerprints are
required for child day care center employees (Conn. Agencies Regs., section 19a-79-4a(b)(1)).
In addition, the regulations require that the employee file also include a check of the State child
abuse registry (Conn. Agencies Regs., section 19a-79-4a(b)(2)).

Providers Did Not Comply With Required Criminal Records and
Child Abuse Registry Checks

We determined that four employees at two providers lacked some or all of the required criminal
records and child abuse and neglect checks. Specifically:

    •   two employees did not have the required Federal- or State-level criminal records checks
        and a check of the State’s child abuse registry,

    •   one employee lacked a State-level criminal records check, and

    •   one employee lacked a check of the State’s child abuse registry.

Appendix D contains the number of instances and categories of noncompliance at each provider.


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                   5
CAUSES OF NONCOMPLIANCE

On the basis of our discussion with State officials, we determined that noncompliance with State
requirements occurred because the inspections are too infrequent and the inspectors are
responsible for too many providers, limiting the amount of time spent on each inspection. The
State licensing agency is required to make unannounced visits of providers only once every 2
years, and the average ratio of licensing inspectors to programs is 1:332. NACCRRA
recommended that States increase inspections of providers to at least once per year and that
States reduce caseloads for licensing inspectors to a ratio of 1:50.

                                       RECOMMENDATIONS

We recommend that the State agency work with the State licensing agency to:

    •   ensure through more frequent and thorough onsite monitoring that providers comply with
        health and safety regulations and

    •   ensure that all providers’ employees who provide direct services to children have had
        criminal records and child abuse and neglect registry checks.

                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
explained its plans for addressing our recommendations. The State agency’s comments are
included in their entirety as Appendix E.




Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                             6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Of the 936 providers that received CCDF funding for the month of July 2012, we selected 3
providers for our review. We based this selection on the consideration of certain risk factors,
including previous health and safety findings and the number of children being served by the
provider.

We conducted fieldwork at three different providers. The selected providers were located in
Waterbury, New Britain, and Hartford, Connecticut. We conducted these unannounced site
visits from October 17 to October 25, 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, State statutes, and regulations for licensing child day
        care centers and the most recent Connecticut CCDF State plan approved by ACF;

    •   interviewed the CCDF program manager to determine how Connecticut monitored its
        child day care center providers;

    •   obtained a letter from the State agency that explained our audit to give to the providers in
        our review;

    •   interviewed the Chief of the Connecticut Department of Public Health’s Community
        Based Regulation Section regarding licensing requirements for providers;

    •   developed a health and safety checklist as a guide for conducting site visits;

    •   conducted unannounced site visits (inspections) at the three providers we selected for
        review;

    •   interviewed providers to obtain a listing of center employees whose salaries were funded
        by CCDF (and who had direct access to children) to determine whether all required
        criminal history records checks were conducted; and

    •   discussed the results of our review with each of the providers, State licensing officials,
        and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                  7
 APPENDIX B: FEDERAL REGULATIONS AND STATE LICENSING REGULATIONS

FEDERAL REGULATIONS

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations (45 CFR 98.1(a)(5)).

The lead agency must certify that there are in effect within the State (or other area served by the
lead agency) under State or local (or tribal) law, requirements designed to protect the health and
safety of children that are applicable to childcare providers that provide services for which
assistance is made available under the CCDF (45 CFR 98.15(b)(5)).

STATE STATUTES AND REGULATIONS

According to the CCDF Plan for Connecticut, the State licensing agency is responsible for
conducting inspections to ensure that providers meet basic health and safety requirements. The
State licensing agency is the State agency responsible for licensing of child day care centers.

General Statutes of Connecticut

Section 19a-77(a)(1) – Child Day Care Services

Child day care services must include a “child day care center,” which offers or provides a program
of supplementary care to more than 12 related or unrelated children outside their own homes on a
regular basis.

Section 19a-79 (formerly section 19-43d) – Regulations and Exemptions

The Commissioner of Public Health must adopt regulations to ensure that child day care centers
meet the health, educational, and social needs of children utilizing such child day care centers.

Regulations of Connecticut State Agencies

The following regulations are applicable to this audit report’s identification of instances of
noncompliance:

Sections 19a-79-4a(b)(1) and (2) – Criminal Records Check

For each prospective employee, the file must include:

    1. a completed State and a completed Federal fingerprint card that must be submitted to the
       department for a State Police Bureau of Identification and a Federal Bureau of Investigation
       criminal records check and

    2. a completed form approved by the department that must be submitted to the department for
       a check of the State child abuse registry.


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                   8
Section 19a-79-6a(c) – First-Aid Kits

The provider must maintain at least one portable, readily available first-aid kit wherever children
are in care, including field trips, outdoor play areas, and one to remain at the facility if all the
children do not attend the field trip. Each kit shall be a closed container for storing first-aid
supplies, accessible to staff at all times but out of the reach of children. First-aid kits must be
restocked after use, and an inventory must be conducted at least monthly.

Section 19a-79-7a(c)(2) – General Requirements

The building, equipment, and services must be maintained in a good state of repair. A maintenance
program must be established that ensures that the interior, exterior, and grounds of the building are
maintained, kept clean and orderly, free from accumulations of refuse, dampness, stagnant water,
dilapidated structures, and other health and safety hazards.

Sections 19a-79-7a(e)(5), (10), and (11) – Environmental Requirements

Walls, ceilings, floors, and rugs must be maintained in a state of good repair and be washable or
easily cleanable. Rugs, if used, must be secured to the floor.

Potentially hazardous substances in child day care centers and group day care homes must be stored
in a separate locked area.

Garbage and rubbish must be kept in containers constructed of durable material approved by the
local health director. Receptacles must be in good repair to prevent infestations by rodents, insects,
and other pests, and to prevent odors, injuries, and other nuisance conditions. The garbage and
rubbish must be moved to an exterior waste storage area at least daily.

Section 19a-79-7a(g)(4) – Equipment

Hardware, such as air conditioners, water heaters, or fuse boxes, must be inaccessible to children.

Sections 19a-79-7a(h)(3) and (4) – Outdoor Play Area

The playground must be free of glass, debris, holes, and other hazards.

Nuts, bolts, and screws must be tight; those that protrude must be covered or protected.

Department Access and Unannounced Inspections

Section 19a-79-2a(c)(7) – Unannounced Inspections

At least every 2 years, the commissioner and the local health director must make unannounced
visits, inspections, or investigations of a licensed child day care center, including viewing the
records required by sections 19a-79-1a to 19a-79-13, inclusive, of the Regulations of Connecticut
State Agencies.


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                    9
      APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                   PHYSICAL CONDITIONS REQUIREMENTS




          Photograph 1: First-aid kit (backpack) on top of a low storage shelf next to
          children’s toys.




         Photograph 2: A rug in a classroom that was not properly secured to the floor.


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                       10
          Photograph 3: Potentially hazardous substances (shaving cream) within the reach
          of children.




                           Photograph 4: Dented garbage can with sharp edges
                           in a classroom.

Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                         11
          Photograph 5: An employee pocketbook within the reach of children.




         Photograph 6: Underside of a classroom rug that is stained and has water damage.




Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                         12
              Photograph 7: Fuse box located in a classroom and accessible to children.




             Photograph 8: Sharp edges on the bottom of a playground fence.

Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                       13
           Photograph 9: Exposed wiring in an outdoor play area gazebo.




           Photograph 10: Protruding bolt without a protective covering in an outdoor
           play area.


Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                     14
                APPENDIX D: INSTANCES OF NONCOMPLIANCE AT EACH
                             CHILD DAY CARE CENTER

                                                                            Criminal
                        Date of                                             Records
                         Last                                                 and
                      Inspection                                             Child
                       Prior to Potentially                                  Abuse
             Provider    OIG     Hazardous Playground                       Registry
                #       Audit    Conditions   Safety                         Checks          Total
                1      9/26/2012    11          5                              1              17
                2       9/9/2011    18          0                              3              21
                3      9/19/2012     0          0                              0               0
              Total                 29          5                              4              38

       Note: We provided to the State agency under separate cover the names of the providers that we audited.




Some Connecticut Child Day Care Centers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-13-02506)                                             15
                                      APPENDIX E: STATE AGENCY COMMENTS

                                      STATE OF CONNECTICUT                                   TELEPHONE
                                                                                             (860) 424-5053
                                        DEPARTMENT OF S OCIAL SERVICES                      TDDmY
                                                                                            1-800-842-4524

RODER1CK L. BREMBY
                                             OFFICE OF THE COMMISSIONER                     FAX
                                                                                            (860) 424-5057
Commissioner
                                                                                            EMAJL
  February 24, 2014                                                                         cornm i s. dss@.ct. go v


  George Nedder, Acting Regional Inspector General for Audit Services
  U.S. Department ofHealth and Human Services
  Office oflnspector General
  JFK Federal Building
  15 Sudbury Street, Room 2424
  Boston, MA 02203

  Dear Mr. Nedder,

  This letter provides the Connecticut response to your January 2014 draft report #A-0 1-13-02506 entitled:
  Connecticut Child Day Care Centers Did Not Always Comply With State Health and Safety Licensing
  Requirements.

  I wish to thank you and your staff for the thorough review completed on Connecticut's administration of
  the Child Care and Development Block Grant (CCDBG). I am most appreciative to how you maintained
  ongoing communication with Peter Palermino, our CCDF Administrator, throughout your review process.

  I was very pleased to learn of your positive and complimentary statements regarding our agency financial
  and reporting controls along with the administration of our child care subsidy program called Care 4 Kids.
  We have and continue to be very proud of our CCDBG efforts since the block grant was passed in 19~0 .

  As it pertains to the draft report listed above, we have attached our formal response to your two
  recommendations. We do concur with your findings and have communicated how we plan to move
  forward.

  Recently Governor Dannel Malloy established the Office of Early Childhood (OEC) which began operation
  on July 1, 2013. The OEC will consolidate several child care programs and services including child·day
  center licensing, child care subsidy and eventually will include CCDBG administration. We have begun our
  transition planning and we expect the OEC will assume leadership for Connecticut's response to the issues
  cited in your draft rep01t. We have briefed Ms. Myra Jones-Taylor, who was appointed as the OEC
  Executive Director.

  We look forward to any fwther questi'ons you may have.




  C:         Jewel Mullen, CT Department of Public Health, Commissioner
             Myra Jones-Taylor, Office of Early Childhood, Executive Director
             Raymond Singleton, Deputy Commissioner
             Peter Palermino, CT CCDF Administrator
                            25 SIGOURNEY STREET • HARTFORD, CONNECTICUT 06106-5033

       Some Connecticut Child Day Care Centers Did Not Always Comply                                          16
       With State Health and Safety Licensing Requirements (A-01-13-02506)
                                                    Connecticut Response
                                                               to
                                                  Office of Inspector General
                                                 Draft Report# A-01-13-02506



OIG Recommendation #1- Ensure through more frequent onsite monitoring that providers comply
with health and safety regulations

CT Response #1- The State of Connecticut concurs with this finding. Connecticut supports the
concept of increased inspections of licensed child day care programs to improve regulatory
compliance. Current resources enable the Department of Public Health to meet the statutory
mandates of inspecting child day care centers every two years. Increasing the presence of inspectors
in programs will improve the health and safety of children in these settings by identifying deficiencies
before children are negatively impacted and providing more opportunities for the provision of
technical assistance to child care providers to achieve and maintain full compliance. The Governor's
proposed budget, announced on February 6, 2014, demon strates a commitment to early childhood
by providing much needed resources to support improvements to Connecticut's child care licensing
system, including the addition of licen sing staff to support annual inspection s.

OIG Recommendation #2- Ensure that all providers' employees who provide direct services to
children have had criminal records and child abuse and neglect registry checks.

CT Response #2- The State of Connecticut concurs with this finding. Connecticut General Statute
19a-80[c] requires "each prospective employee of a child day center ... to submit to a state and
national criminal history records and child abuse regi stry check". The State of Connecticut is carefully
reviewing all options to improve the process, including legislation, and improved policies and
procedures. Resu lting outcomes will need to be considered against available State appropriations.
Factors lying outside the Department's control have significantly impacted the agency's ability to
identify an immediate solution. Such factors include restricted access to live Scan machines
throughout the state and an integrated and automated process for analyzing and disseminating
criminal history check results. The Governor's proposed budget, announced on February 6, 2014,
provides much needed resources to support improvements to Connecticut's child care licensing
system, including the addition of licensing staff to process background checks .




  Some Connecticut Child Day Care Centers Did Not Always Comply                                     17
  With State Health and Safety Licensing Requirements (A-01-13-02506)
